OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S 

DEVELOPMENT CREDIT 

AUTHORITY ACTIVITIES 

AUDIT REPORT NO. 1-521-13-001-P
FEBRUARY 28, 2013




SAN SALVADOR, EL SALVADOR

Office of Inspector General


February 28, 2013

MEMORANDUM

TO:      	         Acting USAID/Haiti Mission Director, Herbert Smith

FROM: 	            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	          Audit of USAID/Haiti’s Development Credit Authority Activities
                   (Report No. 1-521-13-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included them in their entirety in
Appendix II.

The report contains 16 recommendations to help USAID/Haiti improve its Development Credit
Authority Program. On the basis of actions that the mission plans to take, a management
decision has been reached on all recommendations. Please provide the Audit Performance and
Compliance Division in the USAID Office of the Chief Financial Officer with the necessary
documentation to achieve final action.

I want to express my appreciation for the cooperation and courtesy extended to my staff during
the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Two Loan Guarantees Were Not Utilized Sufficiently ............................................................. 4 


     Controls to Ensure That Loans Met Lending Criteria Were Not Adequate ............................. 5 


     Loan Information Was Outdated, Incomplete, and Inaccurate................................................ 7 


     USAID Did Not Perform Portfolio Reviews Properly or Take Corrective Action on 

     Deteriorating Loans................................................................................................................. 9 


     Environmental Checks Were Not Performed ........................................................................ 11 


Evaluation of Management Comments................................................................................... 13 


Appendix I—Scope and Methodology .................................................................................... 16 


Appendix II—Management Comments ................................................................................... 19 


Appendix III—Map of Haiti........................................................................................................ 25 





Abbreviations

The following abbreviations appear in this report:

ADS             A
                	 utomated Directives System
CMS 	           Credit Management System
DCA 	           Development Credit Authority
E3/DC 	         Bureau of Economic Growth, Education and Environment, Office of Development
                Credit
IEE 	           initial environmental examination
RIG 	           Regional Inspector General
SME 	           small and medium-sized enterprise
SUMMARY OF RESULTS 

USAID works to improve Haiti’s long-term financial stability through partial loan guarantees that
encourage private lenders to extend financing to underserved borrowers, including farmers and
enterprises in rural areas. According to USAID/Haiti, the Development Credit Authority (DCA)
program can boost Haiti’s economic recovery and help rebuild the private sector by
strengthening local lending to small and medium-sized enterprises (SMEs)1 engaged in sectors
such as agriculture, construction, tourism, handicrafts, and waste management.

USAID’s Washington-based Bureau of Economic Growth, Education and Environment’s Office
of Development Credit (E3/DC), USAID/Haiti, and financial institutions must work closely with
one another to ensure that DCA objectives are being met. Their roles are described below.

	 An E3/DC portfolio manager oversees loan guarantees. Responsibilities include drafting the
   monitoring plan, reviewing the legal agreement, advising the mission on monitoring,
   analyzing utilization rates, reviewing claims, managing files, and visiting sites.

	 USAID/Haiti has primary responsibility for designing, authorizing, and implementing activities
   that support strategic objectives. An activity manager is responsible for leading the
   guarantee process in Haiti, which includes securing required signatures and meeting with
   financial institutions to discuss how loans should be given, as well as discussing the
   possibility of integrating other USAID/Haiti activities with loan activities. This person acts as
   the liaison between E3/DC and the financial institutions.

	 Financial institutions are responsible for working with borrowers and deciding which loans
   USAID will cover under the guarantee in accordance with their agreements with the Agency.
   Lenders monitor their loan portfolios, and if payments are late, are responsible for making
   reasonable collection efforts before submitting claims to USAID.

As of March 31, 2012, USAID/Haiti maintained seven active guarantees worth $37.5 million.
This audit focused on the four largest, worth $31.5 million (or 84 percent of all active
guarantees), as shown in the table below.

                          Table 1. USAID/Haiti Loan Guarantees Reviewed
                                                                                       Maximum
                                                           Start         End           Portfolio
            Guarantee Number             Lender
                                                           Date          Date           Amount
                                                                                     (Millions of $)
          521-DCA-10-008                Sogebank        9/29/2010      9/29/2016            15
          521-DCA-09-007*               Le Levier*      9/30/2009      9/30/2015             7.5*
          521-DCA-10-009                 Sofihdes       9/29/2010      9/29/2016             5
          521-DCA-08-06                  Sofihdes       9/30/2008      9/30/2013             4
                                                                      Total                 31.5
         Source: Credit Management System (CMS).
        * Le Levier’s eight participating credit unions and an unallocated portion that it has not yet
        assigned add up to the amount of $7.5 million.

1
    According to the mission, an SME has fewer than 100 employees and less than $1.25 million in assets.


                                                                                                           1
The three borrowers examined were:

	 Sogebank: USAID established this $15 million guarantee to stimulate lending to Haitian
   SMEs. Sogebank’s DCA guarantee targets SMEs in the three geographic corridors that are
   part of USAID’s post-earthquake strategy: Northern, Saint-Marc, and Cul-de-Sac (which
   includes Port au Prince). Appendix III contains a map.

	 Sofihdes: Sofihdes is a development finance institution that USAID helped start in 1983.
   The two active guarantees totaling $9 million share the same target group as Sogebank, but
   one has a different target area (described later in this report).

	 Le Levier Federation: Eight members of Le Levier’s group of credit unions have loan
   portfolio guarantees. Le Levier’s total of $7.5 million should allow the credit unions to lend
   to SMEs involved in agriculture and farmers.

The Regional Inspector General (RIG)/San Salvador conducted this audit to determine whether
USAID/Haiti's DCA program was promoting greater lending to underserved areas and
borrowers, particularly in the productive sectors such as agriculture, construction, tourism,
handicrafts, and waste management.

The audit found that while Sofihdes generally has met its loan targets, Sogebank and Le Levier
were not implementing the loan program as quickly as planned (page 4). Furthermore, USAID’s
internal controls were not adequate to confirm that all loans met the DCA lending criteria or that
they were going to entities in the targeted areas (page 5). Additional concerns identified during
the audit included:

	 Loan information was outdated, incomplete, and inaccurate Lenders submitted information
   about their loans after the deadline 80 percent of the time and the information sometimes
   had mistakes or contained only part of what was required (page 7).

	 USAID did not perform portfolio reviews properly or take corrective action on deteriorating
   loans. The portfolio manager monitored only ending loan balances (page 9).

	 Environmental checks were not performed. The mission did not confirm that financial
   institutions made sure that borrowers were not conducting activities that harmed the
   environment (page 11).

The audit recommends that USAID/Haiti, in coordination with E3/DC:

1. 	Meet with lenders to develop a strategy to increase utilization or reduce the maximum
    amounts they have if they do not intend to use the entire guarantee (page 5).

2. 	Meet with lenders to implement a process to identify borrowers involved in prohibited
    activities and remove nonqualifying loans from coverage (page 7).

3. 	Implement a plan to encourage Sogebank to lend in targeted areas outside of Port-au-
    Prince (page 7).

4. 	Develop annual performance targets for the number of women and number of first-time
    borrowers it aims to reach, and implement a plan to lend to these preferred groups (page 7).



                                                                                                2
5. 	 Train lenders so they fully understand the types of loans that should be guaranteed versus
     those that should not be guaranteed (page 7).

6. 	Work with each lender to improve its borrower screening process to confirm that
    underserved borrowers are targeted (page 7).

7. 	 Increase its monitoring and evaluation efforts to confirm that program goals are being met
     (page 7).

8. 	 Send periodic reminders to all lenders about the importance of completing every data field
     accurately and on time (page 9).

9. 	 Update its indicator tracking table to include performance targets and results (page 9).

10. Define each loan indicator clearly and specify how the information should be entered in the
    credit management system (page 9).

11. Increase monitoring when at least 10 percent of the loans in a loan portfolio guarantee are
    90 days late (page 11).

12. Work closely with Sofihdes to implement a plan to encourage timely repayment of loans,
    including the possibility of providing technical assistance to Sofihdes or its borrowers (page
    11).

13. Implement all Development Credit Authority mitigation measures described in the initial
    environmental examination (page 12).

14. Amend its initial environmental examination	 to include an evaluation of pesticide
    procurement and use for the Development Credit Authority’s agricultural activities (page 12).

15. Implement a plan to include the mission’s environment officer in site visits to confirm that
    environmental compliance spot checks are conducted (page 12).

16. Incorporate	 technical assistance for pesticide use into Development Credit Authority
    agricultural activities as one form of a mitigation measure (page 12).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Our evaluation of USAID/Haiti’s management comments is on page 13, and the full
text of management comments appears in Appendix ll.




                                                                                                3
AUDIT FINDINGS 

Two Loan Guarantees Were Not
Utilized Sufficiently
DCA’s operations manual states that one of the primary tasks of E3/DC is to ensure that DCA
guarantees are utilized actively and correctly. Utilization is broadly defined as the extent to
which the guaranteed party has disbursed DCA-guaranteed loans. Utilization is the primary
quantitative measure of how successful a guarantee has been in terms of achieving the financial
and developmental objectives that serve as the basis for its establishment.

Sofihdes was the only lender of the three that we examined that surpassed the expected
utilization rate, as shown in Table 2.

    Table 2. Actual Versus Expected Utilization as of September 30, 2012 (Unaudited)
                                            Expected        Actual
                      Lender                Utilization    Utilization    Difference
                                            (Percent)*     (Percent)
           Sogebank                              30             20**          -10
           Sofihdes, 521-DCA-08-06               80            100            +20
           Sofihdes, 521-DCA-10-009              30             95**          +65
           Le Levier                             60             28***         -32
          Source: CMS.
          *     These estimates are based on standard E3/DC utilization targets. 

          **    The monitoring plans for Sogebank and Sofihdes 10-009 projected utilization of

                50 percent by the end of the second year. 

          ***   This was the average for eight participating credit unions.


Moreover, USAID/Haiti’s fiscal years 2010 and 2011 performance plans and reports showed
that the overall utilization rate for the program as a whole was less than anticipated. The results
for two key indicators measuring loan program utilization—Amount of private financing
mobilized and Number of USG-supported DCA loans issued—were below their targets in fiscal
years 2009, 2010, and 2011, as illustrated in Table 3 on the next page.




                                                                                                 4
                 Table 3. DCA Indicator Results Versus Targets (Unaudited)
                                                        Target          Result      Percent
                Indicator/Fiscal Year
                                                          ($)            ($)        Shortfall
 Amount of private financing mobilized with a DCA
 guarantee
         2009                                           2,710,683     2,415,947       10.9
         2010                                           5,700,000     4,051,011       28.9
         2011                                           9,000,000     5,789,884       35.7
         2012                                           7,900,000     7,211,869*       8.7
 Number of USG-supported DCA loans issued
         2009                                             1,000           474          52.6
         2010                                             1,055           603          42.8
         2011                                             1,325         1,255           5.3
         2012                                             1,072         2,000*
 Sources: USAID/Haiti’s fiscal years 2010 and 2011 performance plans and reports.
 * 2012 results are estimated.

According to the USAID/Haiti fiscal year 2011 performance plan and report, the shortfall
occurred because “microfinance institutions were significantly affected by the 2010 earthquake,
which resulted in a 5% contraction of the economy. During most of fiscal year 2011, financial
institutions were focusing on writing off, restructuring, and recovering loans rather than
marketing the products to new clients.” A secondary reason was that Sogebank and Le Levier
had difficulty introducing the products and establishing specialized departments with trained
staff members.

Sogebank officials said that since DCA charges a utilization fee of 0.75 percent of the average
outstanding principal amount, the bank wanted to use the guarantee selectively.   Le Levier
officials said DCA did not train employees at some credit unions on how to lend to the
agricultural sector until 2012, 3 years after the program started. The USAID portfolio manager
confirmed that the credit unions were delayed and did not start making loans until April 2011.

The fact that borrowers were not getting these loans indicates that they were not able to get the
funds they needed to improve their lives and to stimulate the economy, which consequently
hinders the program from achieving its overall goals. To make certain that USAID adjusts the
program when lenders do not meet utilization targets, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, meet with lenders to develop a strategy to increase utilization or
   reduce the amount they have if they do not intend to utilize the entire guarantee.

Controls to Ensure That Loans Met
Lending Criteria Were Not Adequate
USAID policy, E3/DC guidance, and the specific DCA loan agreements with lenders provide
guidelines that dictate how DCA loan guarantees should and should not be used. Per
ADS 596.2, USAID managers must ensure that internal control standards are maintained in the
implementation of activities to achieve Agency program goals and objectives. However, in the
cases outlined on the next page, USAID/Haiti and E3/DC did not have adequate controls in
place to verify that loans met DCA’s lending criteria.




                                                                                                5
Lenders Did Not Identify Borrowers Engaged in Prohibited Businesses. The loan
agreements specifically mentioned five types of prohibited businesses and listed a few other
areas that needed prior written approval. These restrictions included goods or services to
support law enforcement activities, surveillance and gambling equipment, tobacco activities,
pharmaceuticals, and luxury goods including alcohol and jewelry. However, because lenders
did not have effective practices in place and because USAID did not periodically review the
active loans,, some funds did go to prohibited businesses.

Most Borrowers Were From Port-au-Prince. The U.S. Government’s post-earthquake
strategy in Haiti specifically focused on three development corridors: Northern, Saint-Marc, and
Cul-de-Sac, which includes the capital of Port-au-Prince (Appendix III contains a map). USAID
followed the strategy in its recent agreement with Sogebank by aiming to reach beneficiaries in
these corridors.

Nonetheless, as of March 31, 2012, 90 percent of Sogebank loans were concentrated in and
around Port-au-Prince, and Sogebank did not make any loans in the other two corridors.2 The
recent Sofihdes guarantee also targeted the three development corridors, yet 81 percent of
loans were in the Port-au-Prince area, with 6 percent in Saint-Marc and 6 percent in Northern.3

The portfolio manager said Sogebank was supposed to focus initially in Port-au-Prince and
expand to the other corridors later. Sofihdes is in Port-au-Prince and did not have the resources
it needed to provide loan services in other areas effectively.

Many Borrowers Were Not Underserved. The operations manual stated that DCA aims to
“expand financial services in underserved markets” and that guarantees are to “mobilize local
private capital to finance projects that otherwise would not be funded.”

However, most borrowers had pre-existing relationships with one or more lenders in Haiti.
While some borrowers were uncertain about opportunities for other loans, more than 75 percent
of Sofihdes and Sogebank borrowers interviewed said they could qualify for a loan elsewhere.
For example, a radio station in Port-au-Prince purchased a generator and was instructed to get
the loan from Sofihdes. This borrower already had a relationship with another Haitian bank and
easily qualified for much larger loans.

Additionally, USAID/Haiti defined SMEs as businesses with fewer than 100 employees or less
than $1.25 million in assets. However, at least one borrower had 800 employees on its payroll
at the time of the loan and has since expanded to 1,300.

Women and First-Time Borrowers Were Not Targeted. USAID/Haiti and E3/DC have clearly
defined women and first-time borrowers as target groups for loans, and E3/DC tracks loans to
these groups. However, the audit found that only a few loans reviewed were given to women
and first-time borrowers. Lenders did not make any specific efforts to work with these groups.

Loans did not always meet the program’s stated lending criteria because the lenders did not
establish effective internal controls consistent with the program’s goals and objectives. For
example, USAID/Haiti was not pro-active in training the Credit Administration staff that make the
loan guarantee coverage decision. Thus lenders did not always understand or enforce DCA
program goals and did not always adjust lending practices to meet those goals. Two lenders,

2
    The remaining 10 percent went outside the corridors and the capital.
3
    The remaining 7 percent went outside the corridors and the capital.


                                                                                               6
Sogebank and Sofihdes, did not have a process in place to attract the underserved borrowers
that DCA targeted, and both used the same screening process for DCA loans that they did for
borrowers seeking standard, nonguaranteed loans.

Furthermore, USAID/Haiti and E3/DC did not monitor compliance with lending terms. While
USAID/Haiti officials complied generally with the operations manual guidance by visiting the
lender at the beginning, middle, and end of each guarantee, monitoring could have been
improved by visiting annually and reviewing files closely during those visits. Additionally, USAID
should visit more borrowers to confirm that loans are reaching the intended recipients.

Unless USAID/Haiti addresses these concerns, the DCA loan program will not support
underserved borrowers in targeted areas of the country.

   Recommendation 2. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit and the lenders, implement a process to identify borrowers
   involved in prohibited activities and remove nonqualifying loans from coverage.

   Recommendation 3. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, implement a plan to encourage Sogebank to lend in targeted
   areas outside of Port-au-Prince.

   Recommendation 4. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, develop annual performance targets for the number of women
   and the number of first-time borrowers it aims to reach, and implement a plan to lend to
   these preferred groups.

   Recommendation 5. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, train lenders so they fully understand the types of loans that
   should be guaranteed versus those that should not be guaranteed.

   Recommendation 6. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, work with each lender to improve its borrower screening process
   to confirm that underserved borrowers are targeted.

   Recommendation 7. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, increase its monitoring and evaluation efforts to confirm that
   program goals are being met.

Loan Information Was Outdated,
Incomplete, and Inaccurate
The DCA operations manual explains that the credit management system (CMS) is the primary
database for tracking lenders’ reporting obligations under the guarantee agreement. While CMS
is not an accounting system, it remains the single most important tool for tracking accurate data
for E3/DC’s entire portfolio of DCA guarantees.

The audit found that much of the key monitoring data was outdated, incomplete, or inaccurate.

Loan Information Was Outdated. The DCA manual and the agreements with lenders require
lenders to update loan information in CMS no later than 30 days after the end of each 6-month



                                                                                                7
reporting period. However, lenders submitted the information after the deadline more than
80 percent of the time.

Loan Information Was Incomplete. The audit team reviewed loan information that was stored
in CMS as of March 31, 2012, and noted that it was incomplete for all four guarantees
audited. For example, the Sofihdes guarantee from 2004 to 2007 specifically aimed to stimulate
job growth, yet the data field for the number of employees collected to measure the guarantee’s
impact was often incomplete or inaccurate. Other CMS fields that were not filled in consistently
were city/town, state/region/province, collateral, first-time borrower, woman-owned business,
total assets, and total revenue.
 
In addition, USAID/Haiti tracked three indicators related to claims and the repayment rate in the
indicator performance tracking table. However, the mission was not using the table as a
management tool since it did not update targets and actual results.

Loan Information Was Inaccurate. The audit team reviewed 69 loan files and interviewed
48 borrowers (out of the 69) to verify the accuracy of CMS records as of March 31, 2012. CMS
had inaccurate information in several cases.

	 More than half of the entries for current number of employees were incomplete or
   inaccurate. For example, CMS showed that a borrower had six to ten employees, but the
   owner told the audit team he had many more.

	 For the entire universe of loans, Sogebank did not list or incorrectly listed the city/town and
   state/province/region where it made loans 98 and 22 percent of the time, respectively.
   Sofihdes also made mistakes in these fields. The agreements stated the names of the
   regions the lenders targeted, but USAID was unable to determine whether the lenders were
   meeting the targets since it did not have accurate information.

	 Applicants were asked whether they were first-time borrowers; their answers were recorded
   incorrectly 41 percent of the time.

	 The business/sector field was not specific. Instead of using a more descriptive sector such
   as “health” or “transportation,” Sogebank categorized a hotel, a truck repair shop, a
   bar/restaurant, and a transportation rental company all as “trade/commerce” businesses.

	 The collateral field usually was left blank or listed $0 even though the loan files listed
   collateral. Common types of collateral included life insurance policies, bank accounts, and
   business assets such as inventory, equipment, and land.   Both USAID and the lenders said
   that reporting collateral was challenging. The Sofihdes director said some types of
   collateral, including business inventory, were excluded because their value fluctuated and
   they usually were not available at the time of default. Other assets like residential property
   were counted at 75 percent of the value, while a commercial property was counted at
   50 percent. Similarly, the approach used in reporting total assets and revenue may be
   inconsistent within and among financial institutions. Many Haitian businesses do not have
   professionally prepared financial statements that would document these figures.

	 Information about loan dates, interest rates, and whether a business was woman-owned
   was reported incorrectly several times.




                                                                                                8
USAID/Haiti identified problems with the loan data when it prepared its data quality assessment
in 2009; the assessment said, “It is important to monitor these data closely and to stimulate our
partners to input their data into the system on a more timely basis.” In August 2012, USAID’s
portfolio manager reminded each lender about the importance of accurate reporting in CMS.
Although the manager said the September 2012 submission was more complete and accurate,
data quality problems remained.

Improved USAID oversight of lender reporting could have prevented CMS from being
incomplete and inaccurate. Reliable data are critical to manage the loan portfolios and report
interesting information about the beneficiaries of USAID-guaranteed loans. Furthermore,
complete, well-organized files are an important part of project management. Without them,
project managers, supervisors, and auditors might not have relevant information they need to
perform their duties.

    Recommendation 8. We recommend that USAID/Haiti, in coordination with the Office
    of Development Credit, send periodic reminders to all lenders about the importance of
    completing every data field accurately and on time.

    Recommendation 9. We recommend that USAID/Haiti, in coordination with the Office
    of Development Credit, update its indicator tracking table to include performance targets
    and results.

    Recommendation 10. We recommend that USAID/Haiti, in coordination with the Office
    of Development Credit, define each loan indicator clearly and specify how the
    information should be entered in the credit management system.

USAID Did Not Perform Portfolio
Reviews Properly or Take Corrective
Action on Deteriorating Loans
Automated Directives System (ADS) 249.3.12, “Monitoring, Evaluation, and Audit,” states,
“E3/DC will review the DCA portfolio for signs of increased loan default, based on semiannual
reports, claims processing,4 and other available information. It will troubleshoot problem DCA
loans or guarantees in coordination with missions and bureaus.” This coincides with the Office
of Management and Budget’s Circular A-129, which suggests that missions meet with the banks
at least once a year, especially if the bank’s loan portfolio is showing signs of deterioration or
high levels of default.
 
DCA’s operations manual requires portfolio managers to monitor ending loan balances for the
increased likelihood of claims. The manual states that if at least 10 percent of a bank’s ending
loan balance is more than 90 days past due, the portfolio manager is required to review the
portfolio and determine the likelihood of a default. Portfolio reviews are the first step to
determine what, if any, corrective actions can be taken to reduce the likelihood of loan defaults.



4
   A claim is a financial institution’s request that USAID pay for a defaulted loan. Claims represent
50 percent of the net loss as certified by either a bad debt expense or a loan loss provision for that
defaulted loan.



                                                                                                    9
While E3/DC’s portfolio manager monitored ending loan balances and knew the portfolios for
two Sofihdes guarantees were deteriorating, she did not conduct reviews because she relied on
the lenders to monitor the loans. Both guarantees should have been reviewed because they
greatly exceeded the 10 percent threshold. Portfolio reviews were critical because the data
indicated that numerous loans were on track to default, exceeding the two guarantees’
estimated default rates of 22 percent and 35 percent, respectively.

As of September 30, 2012, USAID paid $438,572 in claims for defaulted loans, of which
$378,837 were from Sofihdes alone. The number of loans in arrears for more than 90 days has
been increasing over the past year. The table below shows that while most lenders have
problems with late payments, it was a serious problem for Sofihdes, with 74 percent and
30 percent of its two guarantees, respectively, more than 90 days late. Once a loan is in default
for 90 days, Sofihdes can submit a claim to USAID to recover 50 percent of the amount. 

      Table 4. Loans More Than 90 Days Late as of September 30, 2012 (Unaudited)
                                                      Original         Amount     Percent
        Guarantee Number             Lender
                                                      Amount             Late      Late
       521-DCA-10-008               Sogebank           $915,251         $78,838      9
       521-DCA-08-06                 Sofihdes          $896,361        $661,652     74
       521-DCA-10-009                Sofihdes        $2,665,612        $807,912     30
       521-DCA-09-007               Le Levier*       $1,115,653        $112,699     10
       Total                                         $5,592,877      $1,661,101     30
      Source: CMS.
      * Figures were combined for Le Levier’s participating credit unions.

The problem has grown worse from quarter to quarter. For one of Sofihdes’ guarantees, the
number of loans more than 90 days late has increased from 42 to 74 percent in 1 year, while the
other has increased from 21 to 30 percent in the same period, as shown in the following graph.

                   Percentage of Sofihdes Loans More Than 90 Days Late




               Source: CMS.




                                                                                              10
The growing number of bad loans occurred because neither Sofihdes nor USAID conducted
portfolio reviews to determine whether potential problems existed and whether they needed to
take corrective actions. The Sofihdes director was not aware of this problem and believed that
the number of claims was actually decreasing. Also, Sofihdes was overly lenient with its
borrowers who paid late and often waived the late fee if a plausible explanation was provided.
The USAID portfolio manager was aware of the problem, but instead of conducting the reviews
required, started to prepare for the likely increase in claims.

When payments are missed and become past due, the risk that the loan will go into default
increases. If Sofihdes’s problem with loan repayments is not addressed, claim payments could
rise significantly; the $1,661,101 in loans more than 90 days in arrears could turn into $830,551
in additional claim payments. Moreover, working in the SME market will continue to be
perceived as too risky, and other financial institutions might not enter the market.

    Recommendation 11. We recommend that USAID/Haiti, in coordination with the Office
    of Development Credit, increase monitoring when at least 10 percent of the loans in a
    loan portfolio guarantee are 90 days late.

    Recommendation 12. We recommend that USAID/Haiti, in coordination with the Office
    of Development Credit, work closely with Sofihdes to implement a plan to encourage
    timely repayment of loans, including the possibility of providing technical assistance to
    Sofihdes or its borrowers.

Environmental Checks Were Not
Performed
Per ADS 204.2, it is the responsibility of the assistance objective teams to make sure that
missions comply with USAID’s environmental procedures. These responsibilities include
“designing, monitoring, and modifying programs, projects, activities and amendments, and
Activity Approval Documents in order to: Ensure that the environmental consequences of
actions taken by USAID are considered and that appropriate environmental safeguards are
adopted, as required by 22 [Code of Federal Regulations] CFR 216.”5

The initial environmental examination (IEE) is one of the required approval documents needed
for a USAID assistance activity to take place. The IEE identifies the environmental effects that
will occur if the activity takes place and suggests appropriate mitigation measures to help offset
them. Per 22 CFR 216.3, if pesticides will be procured and used in the activity, the IEE needs
to include a separate section evaluating the “economic, social and environmental risks and
benefits of the planned pesticide use to determine whether the use may result in significant
environmental impact.”

Additionally, per ADS 204.3.4, assistance objective teams should monitor activities for
compliance with the approved IEE; if the activities are not, the teams must modify or end

5
  The section outlines the general procedures that USAID should use “to ensure that environmental
factors and values are integrated into the USAID decision making process. These procedures also assign
responsibility within the Agency for assessing the environmental effects of USAID's actions... [and]
Ensure that the environmental consequences of USAID financed activities are identified and considered
by USAID and the host country prior to a final decision to proceed and that appropriate environmental
safeguards are adopted.”



                                                                                                   11
activities. Their monitoring duties include properly addressing any unanticipated environmental
consequences that arise during implementation.

USAID’s bureau environmental officer for Haiti approved the last three IEEs for USAID/Haiti’s
DCA activities, but included specific mitigation measures to help prevent potential adverse
environmental consequences caused by SME activities. These measures included incorporating
environmental screening practices into the banks’ loan approval procedures to verify that
borrowers’ activities do not have adverse environmental impacts.

However, the DCA team did not make sure that the financial institutions were incorporating
screening practices. Ten of the 31 SMEs tested during the audit were conducting activities that
posed potential adverse effects to the environment. Additionally, two of the three IEEs did not
include sections evaluating the effects pesticides had on land, farmers, and communities as
required in instances when pesticides are being used. The legal agreement between DCA and
the banks clearly stated that the loans could not be used to purchase pesticides without prior
approval from USAID.

Mission officials said they prepared an umbrella pesticide assessment for all mission agricultural
activities. However, the assessment did not cover DCA agricultural activities, and it did not
clearly link to the IEEs. Therefore, mitigating measures for pesticide use were not incorporated
into the DCAs. Furthermore none of the 16 agricultural borrowers tested were screened by a Le
Levier credit union for pesticide use, and almost all purchased and used pesticides without prior
USAID approval.

In the past, USAID has provided technical assistance for agricultural activities that involved
pesticides to mitigate harmful effects. In the DCA case, however, IEEs were not implemented
properly because nobody was assigned to track and confirm that IEE mitigation requirements
were met for the activities. Therefore, monitoring activities (such as site visits and spot-checks)
rarely were performed. In addition, environmental issues concerning smaller activities like those
of DCA, became less of a priority for the mission because more critical issues came up.

Addressing mitigating measures are important to prevent and reduce possible adverse
environmental impacts. Unless these measures are implemented, the program may be an
unnecessary environmental danger or threat to Haitian farmers and communities.
 
   Recommendation 13. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, implement all DCA mitigation measures described in the initial
   environmental examination.

   Recommendation 14. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, amend its initial environmental examination to include an
   evaluation of the pesticide procurement and use for DCA agricultural activities.

   Recommendation 15. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, implement a plan to include the mission environment officer in
   site visits to confirm that environmental compliance spot checks are conducted.

   Recommendation 16. We recommend that USAID/Haiti, in coordination with the Office
   of Development Credit, incorporate technical assistance for pesticide use into DCA
   agricultural activities as one form of a mitigation measure.



                                                                                                12
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/Haiti reached a management decision on all the
recommendations. Summarized below are the comments and the audit team’s evaluation of
them.

Recommendation 1. USAID/Haiti stated that it will continue to provide assistance to lenders
when necessary. It is also in the process of amending its agreement with Le Levier to reduce
the sub-limits assigned to two credit unions and to allocate a portion of the agreement to new
credit unions that have been approved to participate. The amendment is expected to be
executed by March 31, 2013. Based on the mission’s described actions, a management
decision has been reached for this recommendation.

Recommendation 2. USAID/Haiti has taken action already to remove nonqualifying loans from
coverage and is investigating questionable borrowers to determine whether they should be
removed. USAID/Haiti will further provide lenders with support to improve their internal process
for selecting qualifying loans for guarantee coverage. Additionally, in coordination with the
Office of Development Credit, USAID/Haiti plans to hire a portfolio manager by September 30,
2013, to conduct more frequent spot-checks to ensure that borrowers qualify for coverage.
Based on the mission’s described actions, a management decision has been reached for this
recommendation.

Recommendation 3. USAID/Haiti agreed that Sogebank should expand lending opportunities
to beneficiaries in other areas of the country and will follow up with the institution by March 31,
2013, on its projections for lending outside Port-au-Prince for the next year. Based on the
mission’s described actions, a management decision has been reached for this
recommendation.

Recommendation 4. USAID/Haiti agreed that women and first-time borrowers should be
targeted for lending and stated that it aims to include these groups in the definitions of qualifying
borrowers in new guarantee agreements. The mission intends to initiate negotiations with the
financial institution in mid-March 2013 to establish targets for the number of women and first-
time borrowers, and it will have a plan in place to pursue these groups by mid-June
2013. Based on the mission’s described actions, a management decision has been reached for
this recommendation.

Recommendation 5. USAID/Haiti agreed that specific training for the DCA partners to review
the prohibited activities would be helpful and plans to have this action completed by March 31,
2013. Accordingly, a management decision has been reached for this recommendation.

Recommendation 6. USAID/Haiti agreed and will strongly encourage lenders to target new
borrowers and expand to geographic areas outside Port-au-Prince. Mission officials said they
will work with each lender on an ongoing basis starting in mid-March 2013 to review the
qualifying borrower/qualifying project definitions and help them improve their screening
processes. USAID/Haiti further intends to request that the partner financial institutions
incorporate in their credit manual and procedures the definitions of qualifying borrowers for DCA



                                                                                                  13
loans to complete a revised manual of policies and procedures by mid-June 2013. Based on
the mission’s described actions, a management decision has been reached for this
recommendation.

Recommendation 7. USAID/Haiti agreed to enhance its monitoring and evaluation efforts. It
already has improved monitoring plans that capture utilization targets and development
indicators for the newly signed 2012 guarantees. Due to the increasing number of DCA
activities, the mission plans to hire a local portfolio manager to assist with all activities with a
focus on collecting development impact information. This person will report both to the mission
and the Office of Development Credit and is expected be in place no later than September 30,
2013. Based on the mission’s described actions, a management decision has been reached for
this recommendation.

Recommendation 8. USAID/Haiti agreed with the recommendation and stated that they send
reminders 1 month before the loan schedule reports are due and subsequent reminders right
before they are due. The next reminder will be sent on March 31, 2013. Based on the
mission’s described actions, a management decision has been reached for this
recommendation.

Recommendation 9. USAID/Haiti agreed to work with the Office of Development Credit to
update its indicator tracking table to include performance targets and results by June 2013.
Since the partners report every 6 months, the table will continue to be updated twice a
year. Based on the mission’s described actions, a management decision has been reached for
this recommendation.

Recommendation 10. USAID/Haiti plans to develop a document by June 30, 2013, to be
shared with all DCA partners about the definitions for the data parameters to standardize all
reporting. Based on the mission’s described actions, a management decision has been
reached for this recommendation.

Recommendation 11. The mission plans to develop a plan of action for increased monitoring
when loan portfolio guarantees exceed the threshold of 10 percent of loans 90 days in arrears.
This plan will include follow-up with the partner; closely examining asset quality; and consulting
with the chief risk officer if the agreement warrants a temporary suspension. This action is to be
completed by March 31, 2013. Based on the mission’s described actions, a management
decision has been reached for this recommendation.

Recommendation 12. USAID/Haiti plans to meet with Sofihdes to discuss timely loan
repayments in detail and work with Sofihdes on improving repayment rates by June 30, 2013.
In addition, Sofihdes has received assistance from USAID to reinforce its portfolio monitoring
through an effective management information system. Based on the mission’s described
actions, a management decision has been reached for this recommendation.

Recommendation 13. USAID/Haiti agreed to implement DCA mitigating measures described
in the initial environmental examination. A group training session for all DCA guarantee
partners is scheduled to introduce environmental issues and best management practices for
financial institutions engaged in financing micro, small and medium-sized enterprises. The
training is expected to be completed by February 28, 2013. Based on the mission’s described
actions, a management decision has been reached for this recommendation.




                                                                                                 14
Recommendation 14. USAID/Haiti did not agree to amend its initial environmental
examination to include an evaluation of the pesticide procurement and use for DCA agricultural
activities.

However, USAID/Haiti said it is revising its pesticide evaluation report and safer use action plan
and will include DCA activities and best management practices into this update that will be
completed by April 2013. Based on the mission’s described alternative action and time frame, a
management decision has been reached for this recommendation.

Recommendation 15. USAID/Haiti agreed to establish a plan by the end of March 2013 to
ensure that environmental compliance spot-checks are conducted. Based on the mission’s
described actions, a management decision has been reached for this recommendation.

Recommendation 16. USAID/Haiti stated that it will work with its implementing partners that
provide assistance to farmers to determine how technical assistance for pesticide use could be
provided to farmers who will be recipients of DCA agricultural loans. This activity is expected to
be in place no later than May 31, 2013. Based on the mission’s described actions, a
management decision has been reached for this recommendation.




                                                                                               15
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of the audit was to determine whether USAID/Haiti's DCA program was promoting
greater lending to underserved areas and borrowers, particularly in the productive sectors such
as agriculture, construction, tourism, handicrafts, and waste management. Most of the DCA
loans are supposed to target SMEs located primarily in development corridors identified by the
post-earthquake strategy.

In planning and performing the audit, we assessed the effectiveness of internal controls related
to DCA guarantees. We identified internal controls such as (1) the mission’s documentation that
is pertinent to managing its DCA guarantees, (2) the financial institutions’ procedures regarding
DCA-guaranteed loan approvals, and (3) the annual self-assessment of internal controls in
accordance with the Federal Managers’ Financial Integrity Act of 1982, 31 U.S. Code 3512.
Relevant criteria included USAID’s ADS 249, USAID’s Office of Development Credit’s 2009
operations manual, and the Office of Management and Budget Circular No. A-129.

The audit fieldwork was conducted at USAID/Haiti and at various participating financial
institutions in Haiti from October 1 through November 15, 2012. We conducted interviews with
48 borrowers, primarily in their homes or places of business located in the Saint-Marc corridor
(which included Saint-Marc, Montrouis, and Cabaret), and in Port-au-Prince and its surrounding
areas.

The audit scope encompassed four of seven active DCA loan portfolio guarantees at
USAID/Haiti as of March 31, 2012. The four guarantees provided approximately $13.9 million of
credit available out of a maximum of $31.5 million as of September 30, 2012. The maximum
loan amount for all seven guarantees was $37.5 million. (Table 5 on the next page shows
details about the guarantees.)




                                                                                              16
                                                                                            Appendix I


             Table 5. USAID/Haiti DCA Active Guarantees as of March 31, 2012
                                                                           Maximum      Cumulative
       Guarantee        Lender        Start                      Sector
                                                End Date                    Amount      Utilization
        Number                        Date
                                                                               ($)          ($)*
    521-DCA-10-08      Sogebank    9/29/2010    9/29/2016        SME       15,000,000    3,015,040
    521-DCA-08-06      Sofihdes    9/30/2008    9/30/2013        SME        4,000,000    4,003,686
    521-DCA-10-09      Sofihdes    9/29/2010    9/29/2016        SME        5,000,000    4,738,633
    521-DCA-09-07      Le Levier   9/30/2009    9/30/2015    agriculture    7,500,000    2,103,136
    521-DCA-07-3B      Sogesol     9/12/2007    9/30/2013        SME        3,000,000    2,947,890
                       Capital
    521-DCA-07-3A                  9/12/2007    9/30/2013        SME        1,000,000      985,373
                       Bank
    521-DCA-08-05      ACME        9/30/2008    9/30/2013        micro      2,000,000    1,517,281
    Total Guarantees                                                       37,500,000   19,311,039
    Total Audited Guarantees                                               31,500,000   13,860,495
   Source: CMS.  
   * Utilization figures are updated as of September 30, 2012.

For USAID/Haiti’s DCA loan portfolio guarantees selected for review, we determined whether:

	 Loans were made to qualified borrowers in the targeted regions as specified in the
   guarantee agreement between USAID and the partner financial institution.

	 Activities funded by the guarantees represented the intended purpose stipulated in the
   financial institutions’ loan files.

	 Haitian borrowers and lenders benefitted from the guarantees.

	 Lenders reported loans to USAID completely and accurately.

The audit scope did not include DCA guarantee macro-level results, such as impact on
unemployment, job creation, or other economic growth indicators.

As part of the audit, we assessed the significant internal controls USAID/Haiti used to monitor its
loan portfolio guarantees. The assessment included a review of the controls used by the
mission to (1) conduct and document site visits to evaluate progress and monitor quality,
(2) approve required assessments or evaluations, (3) review lenders’ semiannual reports, and
(4) review and test indicators and activities. Additionally, we reviewed the mission’s annual
certification required by the Federal Managers’ Financial Integrity Act of 1982 to verify whether
the assessment cited any relevant weaknesses. We also reviewed prior DCA audit reports for
any issues related to the audit objective.

Methodology
To answer the audit objective, we performed reviews of three financial institutions participating
in the four largest of USAID/Haiti’s seven active loan portfolio guarantees as of March 31, 2012.
We chose these three because they represented different targeted markets—SMEs and
agricultural borrowers.



                                                                                                      17
                                                                                       Appendix I


For the financial institutions visited, we were able to review DCA loans selected on a judgmental
basis. When possible, the basis for the reviews included representation of loans that the
institutions deemed to be “problems” (with a loan default being claimed or with incidents of late
payment), along with loans that were considered “good.” We reviewed the files of all defaulted
borrowers when the audited financial institutions had filed claims; as of September 30, 2012, we
reviewed eight claims filed by Sofihdes. In this effort, we verified compliance with USAID’s
requirements in terms of notice of default, attempts to recover amounts due, and adherence to
the filing waiting period.

We interviewed mission employees responsible for monitoring DCA and reviewed their pertinent
documents. We also interviewed officials at the financial institutions and reviewed 69 loan files.
When necessary, we supplemented information found in the files by questioning the officials
about the loans. From the files reviewed, we interviewed 48 borrowers and visited sites to
observe certain activities funded under the DCA loans. We selected sites based on time and
distance constraints and the need to cover all three lenders. Since the testing and the site visit
selections were based on judgmental samples, the results and conclusions related to this
analysis were limited to the items and areas tested, and they cannot be projected to the entire
audit universe.

We did not set a materiality threshold for the audit objective because the nature of the audit did
not lend itself to establishing such a threshold.




                                                                                               18
                                                                                        Appendix II



MANAGEMENT COMMENTS 



                                         MEMORANDUM


TO:    	       Jon Chasson, Regional Inspector General

FROM:	         Herbert Smith, Acting Mission Director /s/

CC:	           Lewis Tatem, EGAD, Office Chief
               Claire Johnson, Controller
               Ana Luisa Pinto, E3/DC, Portfolio Manager

DATE:	         January 22, 2013

SUBJECT:	      Management Comments on Draft Audit Report, Dated December 14, 2012,
               Regarding USAID/Haiti’s Development Credit Authority Activities


I.      ACTION REQUESTED
We are requesting your approval of the management comments on the draft audit report
submitted by the Regional Inspector General/San Salvador (RIG/San Salvador) as part of the
audit of USAID/Haiti’s DCA active loan portfolio guarantee agreements.

II.     BACKGROUND
RIG/San Salvador has conducted an audit of the Haiti’s active DCA Loan Portfolio agreements.
A draft report dated December 14, 2012 was submitted to the Mission for review and comment.
Below, we list USAID/Haiti and the Office of Development Credit’s comments to the
recommendations made in the report.

III.   MANAGEMENTS COMMENTS

Recommendation 1- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, 1) provide more assistance to lenders with guarantees that are
underutilized, or 2) reduce the maximum authorized portfolio amounts for lenders that do not
intend to utilize the entire guarantee.

Agree. We have provided assistance and will continue to do it when necessary. Le LEVIER has
received extensive support from USAID to design and implement the agricultural credit product.

SOGEBANK has also received strategic and capacity building support from the International
Finance Corporation to design and implement the SME lending product.

We are confident that Le Levier will utilize the entire guarantee facility. There is a pending


                                                                                                 19
                                                                                        Appendix II


amendment to reduce the sub-limits assigned to two credit unions’ guarantee facilities that are
underutilized and to allocate a portion of the agreement reserved facility amount to new credit
unions that have been approved to participate in the agreement. This amendment should be
executed by March 2013.

It took longer than planned for the financial institution partners that entered new credit markets
to launch their products and bring them to scale. Product deployment suffered setbacks due to
the effects of the January 2010 earthquake on the economy and the impact of the various
storms and droughts on the country’s agriculture in 2012. The financial institutions continue to
closely monitor the new products to calibrate them to the market needs and ensure that they
reach scale.

We will continue to monitor utilization. This is an ongoing effort for the current and the newly
signed FY 2012 DCA agreements.

Recommendation 2- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit and the lenders, develop a process to screen borrowers from prohibited
activities and remove non-qualifying loans from coverage.

Agree. USAID has a process in place to screen borrowers from prohibited activities and remove
non-qualifying loans from coverage when necessary.

USAID does not approve loan by loan with Loan Portfolio Guarantees (LPGs). All DCA
guarantees in Haiti are LPGs. Under an LPG, USAID defines the type of borrower that qualifies
under the guarantee prior to signing the legal agreement with the lender. Once defined, the
lender bears responsibility for selecting the borrowers, ensuring that the borrowers satisfy the
eligibility criteria and assessing the risk. USAID conducts spot checks to see if loans that are
put under coverage comply with Qualifying Borrower and Qualifying Project definitions in the
legal agreement and a thorough review is conducted during the claims process. However, it is
during the claims process that USAID reviews all the loan files to confirm that loans are in
compliance. If they are not valid then the claim requests will be rejected. The lenders pay fees
to use the DCA guarantees. If a loan is not qualifying, the lender will lose out as it will be
responsible for the whole defaulted amount. USAID/Haiti in coordination with the Office of
Development Credit will hire a portfolio manager. This allows for more frequent spot checks.

We have removed the indicated prohibited borrowers from guarantee coverage. We are
investigating the questionable borrowers to determine if they must be removed from coverage.
This should be completed by January 31, 2013.

In addition, we will provide lenders with support to improve their internal process for selecting
qualifying loans for guarantee coverage. A group training that covers this topic was held for their
credit administration staff in August 2012.

Recommendation 3- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, develop a plan to promote SOGEBANK lending in targeted areas outside
of Port-au-Prince.

Agree. SOGEBANK’s plan is to provide SME lending countrywide. However, the pilots are
conducted in Port-au-Prince. The institution has spent significant time designing and launching
the product and is still monitoring it for adjustment to the market needs. We will offer assistance
to support a quicker expansion of the product. We will follow-up with the institution on their


                                                                                                   20
                                                                                       Appendix II


projections for lending outside of Port-au-Prince for the next year. This will be done by March
31, 2013.

Recommendation 4- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, 1) develop annual performance targets for the number of women and the
number of first time borrowers it aims to reach, and 2) develop a plan to lend to these preferred
groups.

Agree. However, this is a negotiating point with the financial institutions; we cannot enforce
targets as these have not been stipulated in the legal agreement definitions for Qualifying
Borrowers in the existing agreements. We agree that women and first time borrowers should be
targeted for lending, and we will strongly pursue that women and first time borrowers are
included in the Qualifying Borrower definitions of new guarantee agreements.

Recommendation 5- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, provide training to lenders so that they fully understand the types of loans
that should be guaranteed versus those that should not be guaranteed.

Agree. Qualifying Borrower/Qualifying Project definitions are reviewed prior to the first reporting
period; however, it would be helpful to conduct a specific training for the DCA partners to review
the prohibited activities. This will be completed by March 31, 2013.

Recommendation 6- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, work with each lender to implement a plan of action to improve its
borrower screening process to ensure that underserved borrowers are targeted.

Agree. We will work with each lender to review the Qualifying Borrower/Qualifying Project
definitions and help them improve their borrower screening process. We will strongly
encourage that the lenders target new borrowers and expand to geographic areas outside Port-
au-Prince. This will be an on-going activity.

Recommendation 7- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, implement a plan to increase its monitoring and evaluation efforts to
ensure that program goals are being met.

Agree. We have enhanced the monitoring and evaluation efforts with improved monitoring plans
that capture utilization targets and development indicators for the newly signed FY 2012
guarantees. This will be an ongoing effort. Due to the increasing number of DCA activities, the
Mission plans to hire a local Portfolio Manager to assist with all the DCA activities with a focus
on collecting development impact information. This person will report both to the Mission and
the Office of Development Credit. This person should be on board by September 30, 2013.

Recommendation 8- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, send periodic reminders to all lenders about the importance of completing
every data field accurately and timely.

Agree. This was raised during the August 2012 DCA training with all partners. We send
reminders one month before the loan schedule reports are due and subsequent reminders right
before the reports are due. This is an ongoing activity.

Recommendation 9- We recommend that USAID/Haiti, in coordination with the Office of


                                                                                                  21
                                                                                          Appendix II


Development Credit, update its indicator tracking table to include performance targets and
results.

Agree. The indicator tracking table reports performance targets and results for all F-indicators.
We will work with the Office of Development Credit to set targets for the other performance
indicators in the table, i.e. the number and value of claims placed under USG guarantees, and
generate reports from CMS to update the indicator table.

Recommendation 10- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, clearly document the definition of each loan indicator or attribute and
specify how the information should be entered in the Credit Management System.

Agree. This was reviewed with all DCA partners in the August 2012 training and this is also
reviewed with new partners. The Office of Development Credit will develop a document that can
be shared with all DCA partners on the definitions for the data parameters so all reporting can
be standardized. This will be completed by June 30, 2013.

Recommendation 11-We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, implement a plan of action for increased monitoring when loan portfolio
guarantees exceed the threshold of 10 percent of loans 90 days in arrears.

Agree. The Office of Development Credit will develop a plan of action for increased monitoring
when loan portfolio guarantees exceed the threshold of 10 percent of loans 90 days in arrears.
This plan will include follow-up with the partner on how they are resolving the issue; closely
examining their asset quality; consulting with Chief Risk Officer if agreement warrants a
temporary suspension, etc. This will be completed by March 31, 2013.

Recommendation 12- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, work closely with SOFIHDES to develop a plan to encourage timely
repayment of loans, including the possibility of providing technical assistance to SOFIHDES or
its borrowers.

Agree. We will meet with SOFIHDES to discuss this issue in detail and work with them on
improving repayment of their loans. This should be completed by June 30, 2013.

The institution is committed to upgrade its monitoring system. It will recruit and train staff, to the
extent necessary, to effectively monitor and review its credit portfolio. SOFIHDES plans to
strengthen its internal loan collection process to supplement outsourced collection service. It
has just hired a collection specialist. In addition, the institution has received assistance from
USAID to reinforce its portfolio monitoring through an effective management information system.
The implementation of the system should be finalized this summer.

Recommendation 13- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, implement all DCA mitigation measures described in the initial
environmental examination.

Agree. A group training session for all DCA guarantee partners is scheduled for the last week
of February to introduce to them Environmental Issues and Best management practices for
financial institutions engaged in micro, small and medium enterprises (MSMEs) financing.
USAID 22CFR 216 Environmental Compliance will be presented as well as screening templates
that will be developed or adapted for MSME lending. The Mission’s Pesticide Evaluation Report


                                                                                                   22
                                                                                          Appendix II


and Safer use Action Plan (PERSUAP) will also be presented and a list of approved pesticides
will be given to the agricultural lending DCA partners in order for them to include it in the credit
process.

Separate training sessions can be offered on demand for specialized lending products such as
Agricultural Lending or Housing Microfinance.

Recommendation 14- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, amend its initial environmental examination to include an evaluation of the
pesticide procurement and use for DCA agricultural activities.

Disagree. USAID/Haiti has a Mission-wide Pesticide Evaluation Report and Safer use Action
Plan (PERSUAP). The current PERSUAP is under revision to include best management
practices. The partner institutions will be updated and the institutions will be required to follow
the plan.

Recommendation 15- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit, establish a plan to include the mission environment officer in site visits to
ensure that environmental compliance spot checks are conducted.

Agree. This will be an ongoing activity. The plan will be established by the end of March 2013.

Recommendation 16- We recommend that USAID/Haiti, in coordination with the Office of
Development Credit incorporate technical assistance for pesticide use into DCA agricultural
activities as one form of a mitigation measure.

Agree. We will work with USAID programs that provide assistance to farmers to see how
technical assistance (TA) for pesticide use could be provided through their partners
associations; for example, TA could be provided through WINNER and/or HIFIVE projects’
partner associations and the financial institutions would refer their clients to these associations
in addition to providing to them the list of approved pesticides. This activity should start no later
than May 31, 2013.

IV.    RECOMMENDATION

That you approve the management comments that will be included in the DCA audit report.




                                                                                                      23
                                                                     Appendix III 



                            Map of Haiti Corridors Targeted by DCA
 




Source: USAID/Haiti Strategic Plan.




                                                                               24
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
